ACUERDO DE TARJETAS DE CREDITO PARA BEYOND SMALL BUSINESS MASTERCARD® DE FIRSTBANK
(EL “ACUERDO”)
Tasa de Interés y Cargos por Intereses
Tasa de Porcentaje Anual (APR)
APR Introductorio del
por los primeros 6 ciclos de facturación, posteriores a la apertura de
para Compras
su cuenta. Subsiguientemente, su APR será de la Tasa de Interés Preferencial de los Estados Unidos

1.99%

(“Prime Rate”) + 8.50% hasta la Tasa de Interés Preferencial de los Estados Unidos
(“Prime Rate”) + 18.50%, al abrir su cuenta basado en su capacidad de crédito.
APR para Transferencias de
Balance

APR Introductorio del 1.99% por los primeros 6 ciclos de facturación, posteriores a la apertura de su
cuenta. Subsiguientemente, su APR será de la Tasa de Interés Preferencial de los Estados Unidos
(“Prime Rate”) + 8.50% hasta la Tasa de Interés Preferencial de los Estados Unidos (“Prime Rate”) +
18.50% al abrir su cuenta basado en su capacidad de crédito.

APR para Adelantos en Efectivo

Tasa de Interés Preferencial de los Estados Unidos (“Prime Rate”) + 13.00% hasta Tasa de Interés
Preferencial de los Estados Unidos (“Prime Rate”) + 20.00%,	   al abrir su cuenta basado en su capacidad
de crédito.
29.99%*

APR de Penalidad y Cuándo Aplica

Este APR podría aplicarle a su cuenta si el pago mínimo no es recibido dentro de un periodo de
sesenta (60) días desde su vencimiento.
¿Por cuánto tiempo aplica la Tasa por Penalidad?: Si su APR aumenta por esta razón, la Tasa de
Penalidad permanecerá en efecto hasta que la cuenta se ponga al día y se hayan realizado seis (6)
pagos mínimos consecutivos en o antes de su fecha de vencimiento.
Cómo Evitar el Pago de Intereses
en Compras

Cargo Mínimo por Intereses
Para Obtener Consejos del
“Consumer Financial Protection
Bureau”
Cargos
Cuota Anual

Su fecha de pago será de por lo menos 25 días después del cierre de cada ciclo de facturación. No le
cobraremos ningún tipo de interés sobre las compras si usted paga la totalidad de su saldo a más tardar
en la fecha de vencimiento cada mes. Los intereses de adelantos en efectivos, transferencias de
balances y cheques de conveniencia se impondrán desde la fecha que se lleve a cabo la transacción.
Si se le cobra intereses, el cargo no será menor de $1.50.
Para obtener más información sobre los factores que deben considerarse al solicitar o utilizar una
tarjeta de crédito, visite el portal electrónico del “Consumer Financial Protection Bureau” en
https://www.consumerfinance.gov/learnmore
$0 Cuota Anual Introductoria por 12 meses, luego $50
$0 Cargo por tarjeta adicional (si aplica)

Cargos por Transacciones
-Transferencia de Balance:
-Adelantos en Efectivo:
-Cheques de conveniencia:
-Conversión de Moneda:

2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
1.40% de cada transacción de dólares americanos.

Cargos por Penalidad
-Pago Tardío
-Cheque Devuelto

Hasta $35
Hasta $15

Cómo Calculamos su Balance: Utilizamos un método llamado “balance promedio diario sin capitalización (incluyendo compras nuevas)”. Vea su Acuerdo para
más detalles.
Pérdida del APR Introductorio: Podremos terminar su APR Introductorio y aplicar el APR de Penalidad si el pago mínimo no es recibido dentro de un periodo de
sesenta (60) días desde su vencimiento.
Derecho de Facturación (“Billing Rights”): Información de como ejercer su derecho a disputar transacciones se incluyen en el Acuerdo.
Pago Tardío: El cargo por la penalidad de un pago tardío no excederá de $25. Sin embargo, de ocurrir un segundo pago tardío dentro de un periodo de seis (6)
ciclos de facturación se aplicara el cargo máximo que se encuentra en la tabla. El cargo por la penalidad de Cheque Devuelto no excederá la cantidad del cheque
emitido.

* La Tasa Periódica diaria para el APR de Penalidad es de 0.0822%

Revise y guarde la siguiente información de su cuenta. Este documento junto a la tabla de cargos por financiamiento y cargos
adicionales es el acuerdo entre usted, el tarjetahabiente, y FirstBank. De usted tener alguna duda, favor de comunicarse con
nosotros al número que se encuentra al dorso de su tarjeta de crédito.
CUENTA: En consideración al crédito otorgado por FirstBank (el “Banco”) bajo esta cuenta rotativa, Usted (el tarjetahabiente
principal bajo este Acuerdo) se compromete a pagar al Banco la totalidad de las compras, avances en efectivo, transferencias
de balance de otras instituciones y cheques de conveniencia cargados a esta cuenta, así como los CARGOS Y TASAS
FINANCIERAS acordados conforme a los términos y condiciones de este Acuerdo. La Cuenta solo debe ser usada para gastos
legítimos de negocios y no puede ser utilizada para ningún propósito ilegal. La tarjeta de crédito no debe ser usada en ningún
país sujeto a sanciones económicas impuestas por el gobierno de Estados Unidos, y cualquier intento de usar la tarjeta de
crédito en dichos países será bloqueado. La tarjeta de crédito no puede ser usada en conexión con apuestas por internet ni
para proveer fondos a cuenta alguna establecida para facilitar las apuestas por internet.
TRANSACCIONES: Usted puede obtener crédito en forma de compras, transferencias de balance o avances en efectivo. Para
propósitos de este Acuerdo, compras significa el uso de su número de cuenta y/o de la tarjeta de crédito para adquirir o alquilar
servicios y bienes, y realizar una transacción que no es un avance en efectivo (“Compra(s)”). Una transferencia de balance es
la transferencia de fondos a otro acreedor iniciada por el Banco a solicitud suya (“Transferencia de Balance”). Un avance en
efectivo significa el uso de su línea de crédito para cualquiera de las siguientes: acceder a un cheque que usted extienda o firme
como emisor; obtener un avance en efectivo de un cajero automático; solicitar efectivo, giros postales, cheques de viajero o
transferencias electrónicas a una institución financiera o no financiera; realizar transacciones similares al uso de efectivo (cuasiefectivo) como la compra de divisas, cheques de viajero o giros postales a instituciones no financieras así como transacciones
similares en efectivo, como comprar boletos de lotería, fichas de casino, apuestas en circuitos de carreras, o transacciones de
apuestas similares; y hacer pagos a través de un tercero proveedor de servicios (“Adelantos en Efectivo”).
USUARIO AUTORIZADO: Usted será responsable por todas la transacciones hechas por la persona que usted autorice para el
uso de cheques de conveniencia, número de cuenta, u otro mecanismo de crédito para acceder a su línea de crédito,
incluyendo las transacciones por las que usted no pretendía ser responsable, inclusive si la cantidad de dichas transacciones
causan que su línea de crédito exceda el límite establecido. Al usuario autorizado podrá otorgársele acceso a información
relacionada a esta cuenta si Usted lo solicita conforme a los requerimientos del Banco. Una notificación a cualquier usuario
autorizado se considerara una notificación a todos los usuarios de la tarjeta.	  Si por alguna razón, la Persona Autorizada cesa de
ser una persona autorizada, principal tarjetahabiente es el único responsable de notificar dicho evento al Banco por escrito o por
teléfono. Hasta entonces, el tarjetahabiente principal continuará respondiendo por extensiones de crédito y cargos incurridos.
LÍMITE DE CRÉDITO: Usted acepta que el Banco establecerá para su conveniencia un límite de Crédito y de Avances en
Efectivo, en donde las Compras, Transferencias de Balance, Cheques de Conveniencia y Avances en Efectivo que usted cargue
a esta cuenta en ningún momento excederán los respectivos límites. El límite de Avances en Efectivo será solo una porción de
lo que está disponible en su límite de crédito. El Banco se reserva su derecho a cambiar o modificar los límites de Crédito y
Avances en Efectivo.
Al recibir su Tarjeta, a usted se le informará su límite de crédito, el cual aparecerá en cada estado de cuenta mensual (“Estado
de Cuenta”) que el Banco le envíe. Usted acepta que el banco podrá, de tiempo en tiempo, cambiar su límite de crédito,
tomando en consideración su experiencia de crédito e historial de pagos previos. Si usted se excediera del límite de crédito
autorizado, el Banco tendrá derecho a cancelar la Tarjeta, requerir su devolución, o cancelar la Tarjeta y cerrar la cuenta.
Cualquier cantidad adeudada en exceso de su límite autorizado será pagadera inmediatamente. Su pago mínimo debe incluir
cualquier exceso sobre su límite de crédito autorizado.
CARGOS POR INTERESES APLICABLES A PUERTO RICO E ISLAS VIRGENES DE ESTADOS UNIDOS: Los CARGOS POR
FINANCIAMIENTO se computan únicamente sobre el balance del principal. Usted pagará un CARGO POR FINANCIAMIENTO
mensual sobre el balance de su cuenta durante el período de facturación. Este CARGO POR FINANCIAMIENTO será variable y
podrá cambiar para cada período de facturación. EL CARGO POR FINANCIAMIENTO para compras, transferencias de

balances de otras instituciones, adelantos en efectivos y cheques de conveniencia se calculará sumando la Tasa Preferencial
de Estados Unidos más alta (“Prime Rate”) publicada, el último día laborable del mes previo, en la sección “Money Rates” del
The Wall Street Journal” a un margen. Esto equivale a la TASA DE PORCENTAJE ANUAL (“APR”, por sus siglas en inglés).
Para calcular la tasa periódica (la “Tasa Periódica”) diaria, se divide el APR entre 365. El CARGO POR FINANCIAMIENTO y el
APR aplicable a su cuenta dependerán de su capacidad crediticia y del “Prime Rate” vigente al momento de la aprobación
de la solicitud. Para cada período de facturación el CARGO POR FINANCIAMIENTO y el APR se determinarán utilizando el
“Prime Rate” vigente al último día laborable del mes previo que se publique. Un incremento en el “Prime Rate” podría
representar un aumento en su TASA DE PORCENTAJE ANUAL y en su pago mínimo. Cualquier variación en el CARGO POR
FINANCIAMIENTO aplicará a los balances existentes y a las transacciones nuevas incluidas dentro del período de facturación.
EL CARGO POR FINANCIAMIENTO se establece multiplicando el balance diario promedio (el “Balance Diario Promedio”) por la
Tasa Periódica Diaria, por el número de días del periodo de facturación. Obtenemos este balance tomando el balance inicial de
cada día del período de facturación, restándole los pagos y créditos, y sumándole las compras, excepto compras hechas en un
período de facturación en que el balance inicial sea $0 o ese balance inicial sea pagado por completo en o antes de la fecha de
pago. Luego se suman todos los balances diarios dentro del período de facturación y se divide ese total entre el número de días
comprendidos dentro del período. El resultado es el Balance Diario Promedio. No se impondrá un CARGO POR
FINANCIAMIENTO para períodos de facturación en que no exista un balance previo, siempre y cuando la totalidad del balance
de la cuenta incluyendo las compras efectuadas durante ese período, sea pagado o acreditado en su totalidad en o antes de la
fecha de pago aplicable o si el único balance adeudado corresponde a ofertas de pagos o intereses diferidos. No habrá período
de gracia para adelantos en efectivo, transferencias de balance y cheques de conveniencia. Los CARGOS POR
FINANCIAMIENTO de adelantos en efectivo, balance de transferencias y cheques de conveniencia se impondrán desde la
fecha en que se realiza la transacción. Del “The Wall Street Journal” dejar de publicar el Prime Rate, seleccionaremos una tasa
similar.
PAGO MENSUAL MÍNIMO: 2% del balance ó $15.00, lo que sea mayor. Además, su pago mínimo incluirá deudas atrasadas y
la cantidad total sobre su límite de crédito autorizado.
APLICACIÓN DE PAGO: De usted efectuar el pago mínimo requerido en el Estado de Cuenta mensual, dicho pago será
aplicado primero a los CARGOS POR FINANCIAMIENTO y la cantidad restante será aplicada a los balances con el APR más
bajo. Si usted paga una cantidad en exceso del pago mínimo requerido, el exceso se aplicará a los balances con el APR más
alto. Los pagos se acreditarán el mismo día sí: (i) se reciben antes de las 5:00 p.m. de lunes a viernes (excepto días feriados)
en la dirección que aparece en su Estado de Cuenta, (ii) se pagan con un cheque girado contra el Banco, y (iii) se acompaña el
talonario de pago. Si el pago es a través de una sucursal del Banco, se acreditará el próximo día laborable con retroactividad a
la fecha de recibo del mismo. Pagos electrónicos que el Banco reciba también serán acreditados el próximo día laborable con
retroactividad a la fecha de su recibo.
ESTADO DE CUENTA MENSUAL: El Banco le enviará mensualmente a usted un Estado de Cuenta al finalizar cada período de
facturación. En cada Estado de Cuenta se indicarán las siguientes partidas según sean aplicables: balance anterior, pagos,
créditos, débitos, compras, transferencias de balance de otras instituciones, cheques de conveniencia y adelantos de efectivo
efectuados durante el período en cuestión, el CARGO POR FINANCIAMIENTO, la TASA DE PORCENTAJE ANUAL, el total del
balance nuevo, el pago mínimo y la fecha en que vencerá dicho pago. Usted deberá notificar por escrito al Banco cualquier error
en el Estado de Cuenta dentro de los sesenta (60) días siguientes a la fecha en que el Estado de Cuenta le es enviado.
CARGOS: Las transacciones efectuadas en moneda extranjera se reflejan es su estado de cuenta en dólares americanos. El
cargo por la conversión de moneda extranjera a dólares americanos lo calculará Visa Internacional o MasterCard Internacional
dependiendo su tarjeta de crédito. Favor de referirse a la tabla de “cargos”.
DISPONIBILIDAD DE LÍNEA DE CRÉDITO: El Banco pudiese Congelar la Disponibilidad de su Línea de Crédito si su pago es
revertido por cualquier razón o si se reciben múltiples pagos dentro del mismo ciclo de facturación. El Bloqueo retrasará por un
periodo de hasta 4 días la disponibilidad en su línea de crédito por la cantidad del pago efectuado.
“SKIP A PAYMENT”: De tiempo en tiempo, si se cumplen los criterios pre-establecidos, le estaremos permitiendo no hacer el
pago mínimo de su tarjeta de crédito para ciertos ciclos de facturación. Si recibe esta oferta, su estado de cuenta mostrará que

el Pago Mínimo requerido para ese período es de $ 0.00, y no tendrá que hacer el pago mínimo para ese ciclo de facturación.
Si decide no hacer el pago, sepa que la cuenta seguirá acumulando Cargos por Intereses sobre el balance adeudado durante
ese período. Sin embargo, usted siempre podrá hacer un pago por cualquier cantidad. Al final del período de “Skip a Payment”,
los términos del Acuerdo con respecto al Pago Mínimo requerido se reanudarán automáticamente.
INCUMPLIMIENTO: Usted habrá incumplido este Acuerdo si deja de hacer algún pago a tiempo, si radica quiebra, o si excede
su límite de crédito sin autorización del Banco. En caso de incumplimiento, el Banco podrá reclamar el pago de la totalidad del
balance adeudado. Si el Banco se ve en la necesidad de tener que cobrarle a usted por la vía legal, usted podría además
incurrir en gastos legales y honorarios de abogado, así como cualquier otra suma autorizada por ley.
CUOTA ANUAL: Favor referirse a la sección de “Cuota Anual” en tabla de Tasas de Intereses y Cargos por Intereses incluida en
este acuerdo. Las CUOTAS ANUALES se reflejarán en su Estado de Cuenta en cada aniversario de la fecha de emisión de la
primera Tarjeta solicitada.
DENEGACIÓN DE LA TARJETA: El Banco no será responsable si una compra o adelanto de efectivo en su cuenta no es
autorizado por el Banco a un tercero, aún en el caso de que usted tenga crédito disponible. El Banco puede limitar el número de
compras o adelantos de efectivo aprobados durante cualquier día. Si el Banco detecta actividad poco usual o
sospechosa en su cuenta, podrá suspender temporalmente su crédito hasta que se verifique la legitimidad de la transacción. El
Banco podría aprobar compras o adelantos de efectivo que excedan su límite de crédito sin renunciar a sus derechos bajo este
Acuerdo.
TARJETA EXTRAVIADA O HURTADA: Si su Tarjeta se extraviara o fuera hurtada o si usted sospecha que alguien pudiera
utilizarla sin su autorización, usted deberá notificar inmediatamente al Banco y completar y someter aquellos formularios o
informes que el Banco le requiera. En caso de pérdida, robo o posible uso no autorizado, usted podrá ser responsable por el
uso no autorizado de la Tarjeta hasta una cantidad que no exceda de $50.00, a menos que usted haya notificado al Banco del
extravío, hurto o posible uso no autorizado de la Tarjeta con antelación a cualquier compra o adelanto, comunicándose
libre de costos al (855) 701-2265 ó collect (787) 751-2265. Servicio de Teletexto (TTY) para audio-impedidos: 787-2824267.
Sus derechos de facturación: Mantenga este documento para su uso futuro
Este aviso le informa sobre sus derechos y nuestras responsabilidades bajo el “Fair Credit Billing Act”.
Que Puede Hacer Si Piensa Que Hay un Error En Su Estado de Cuenta
Si usted entiende que hay un error en su Estado de Cuenta, escríbanos:
FirstBank
PO Box 84025
Columbus, GA 31908-4031
En su comunicación, provéanos la siguiente información:
•
•
•

Información de su Cuenta: Su nombre y número de cuenta
Cantidad en dólares: La cantidad en dólares del alegado error.
Descripción del alegado error: Si entiende que hay un error en su factura, describa lo que entienda que es erróneo con
una explicación de por qué usted considera que existe un error.

Usted debe comunicarse con el Banco:
•

Dentro de los 60 días siguientes a la fecha del envió del Estado de Cuenta donde aparece el alegado error.

•

Al menos tres (3) días laborables antes de cualquier pago automático calendarizado, si usted desea detener el pago
sobre la cantidad que usted entiende esta equivocada.

Usted debe notificarnos los alegados errores potenciales por escrito. Usted se puede comunicar por teléfono con el Banco, pero
ellos no nos requiere hacer ningún tipo de investigación por errores potenciales y usted tendría que pagar la cantidad
cuestionada.
Que sucederá luego de que recibamos su carta
Una vez recibamos su carta, haremos dos cosas:
1.

Dentro de los 30 días a partir del recibo de su carta, nosotros indicaremos que la recibimos. También indicaremos si
ya hemos corregido el error.

2.

Dentro de los 90 días a partir del recibo de su carta, nosotros deberemos corregir el error o explicarle porque
entendemos que su estado de cuenta es correcto.

Mientras investigamos el alegado error, lo siguiente es cierto:
•
•

•
•

No podemos cobrarle la cantidad en cuestión, o reportarla delincuente por esa cantidad.
La cantidad cuestionada puede mantenerse en su estado de cuenta, y podemos continuar cobrando los intereses por
esa cantidad. Del Banco determinar que se cometió un error, usted no tendrá que pagar el monto en cuestión, o
cualquier interés o cargo adicional relevante a la referida cantidad.
Aun cuando usted no tiene que pagar el monto en cuestión, sí es responsable por el saldo del balance pendiente.
Podemos aplicar cualquier cantidad no pagada contra su límite de crédito.

Una vez finalicemos la investigación, una de estas dos cosas sucederán:
• Si cometimos un error: Usted no tendrá que pagar la cantidad en reclamación o cualquier interés o cargo relacionado
a esa cantidad.
• Si entendemos que no hemos cometido ningún error: Usted tendrá que pagar la cantidad en reclamación, así como
intereses y cargos aplicables. Nosotros le enviaremos un estado de cuenta con la cantidad que usted adeuda y la
fecha límite de pago. Podríamos entonces reportarlo como moroso si no paga la cantidad que entendemos que usted
adeuda.
Si usted recibe nuestra explicación y aun entiende que su estado de cuenta tiene un error, usted debe escribirnos dentro de los
próximos 10 días explicándonos que aun rehúsa hacer el pago. Si usted hace esto, nosotros no podemos reportar su cuenta
morosa sin informar que usted está cuestionando su cuenta. Nosotros deberemos informarle el nombre de cualquier
organización a quien reportemos como morosa, y debemos notificarle a esas organizaciones que la reclamación ha sido
resuelta en el momento en que hayamos llegado a un acuerdo con usted.
Si no seguimos las reglas antes descritas, usted no tendrá que pagar los primeros $50 de la cantidad en reclamación aun si la
cuenta esta correcta.
Sus Derechos de Insatisfacción con la Compra llevada a cabo con su Tarjeta de Crédito
De estar insatisfecho con los artículos o servicios que compró con su tarjeta de crédito, y ha hecho un intento de buena fe para
corregir el problema con el vendedor, podría tener el derecho de no pagar el monto pendiente de su compra.
Para ejercer este derecho, todo lo siguiente debe ser cierto:
1.

La compra tiene que haber sido en el estado donde usted reside, o a 100 millas de su dirección postal actual y el
precio de la compra tiene que ser mayor de $50. (Nota: Esto no es necesario si su compra se baso en un anuncio que
le enviamos a usted, o si somos dueños de la empresa que le vendió los bienes o servicios.)

2.
3.

La compra fue realizada con su tarjeta de crédito para la compra. Las compras realizadas con adelantos en efectivo
de un cajero automático o con un cheque que acceden su cuenta de crédito no les aplica este derecho.
Usted no debe haber pagado todavía la totalidad de la compra.

Si se cumplen todos los criterios antes mencionados y usted aun no está satisfecho con la compra, comuníquese con nosotros
por escrito a:
FirstBank
PO Box 84025
Columbus, GA 31908-4031
Mientras investigamos, aplicarán las mismas reglas a la cantidad en disputa, según descritas arriba. Al concluir la investigación,
le informaremos nuestra decisión. En ese momento, si entendemos usted adeuda una cantidad y usted no ha pagado
podremos reportar su cuenta como morosa.
ENMIENDAS: Usted acuerda que el Banco podrá cambiar las tasas de interés, los CARGOS POR FINANCIAMIENTO y otros
cargos y términos de este Acuerdo, siempre y cuando el Banco le notifique de dichos cambios conforme de dichos cambios
conforme las leyes y reglamentos aplicables. Si usted no estuviera de acuerdo con las enmiendas notificadas y deseara dar por
terminado este Acuerdo, deberá notificar por escrito al Banco de su decisión dentro del término de quince (15) días de la fecha
en que se le envíe la notificación de enmienda y seguirá pagando los balances adeudados conforme a los términos y
condiciones vigentes al momento de la notificación de enmienda.
CANCELACIÓN: Usted puede cancelar este Acuerdo en cualquier momento mediante notificación al Banco por teléfono o
por escrito en donde se incluya su Tarjeta partida en dos. La Tarjeta es propiedad del Banco, quien se reserva el derecho de
cancelar o revocar su derecho a usarla en cualquier momento, con o sin causa, y sin previa notificación. El Banco podría emitirle
una Tarjeta distinta en cualquier momento. Usted continuará siendo responsable por el pago de cualquier balance adeudado al
momento de la cancelación.
DISPOSICIONES MISCELÁNEAS: La omisión por parte del Banco de ejercer cualquier derecho bajo este Acuerdo no
constituirá una renuncia a dicho derecho. Si alguna cláusula o parte de una cláusula de este Acuerdo fuera declarada nula por
un tribunal o dejase de tener efecto por disposición legal o reglamentaria, las disposiciones restantes de este Acuerdo no se
afectarán y continuarán en vigor. Usted entiende y está de acuerdo que estas Tarjetas son para ser utilizadas para fines
corporativos de empresa. El Banco, se reserva el derecho de convertir su cuenta a cualquier otro tipo de cuenta rotativa del
Banco en cualquier momento, siempre y cuando usted cumpla con los criterios crediticios establecidos por el Banco para la
nueva cuenta. Usted no está obligado a aceptar la nueva cuenta, ni será responsable de cargo alguno a menos que usted elija
aceptarla. El uso de la nueva tarjeta constituye aceptación de la misma. El Banco podrá, sin previa notificación a usted,
transferir, vender, ceder o traspasar su cuenta, este Acuerdo, o nuestros derechos y obligaciones sobre su cuenta o bajo este
Acuerdo a cualquier entidad o persona. La persona o entidad a la que se le venda, traspase, ceda o transfiera este Acuerdo o
nuestros derechos y obligaciones sobre su cuenta, asumirá las obligaciones de El Banco bajo este Acuerdo. De usted no
desear aceptar la misma, deberá notificar al Banco dentro de los quince (15) días luego de recibirla, sin haberla utilizado. Para
notificar que no desea aceptar la Tarjeta, deberá comunicarse libre de costos al (855) 701-2265 ó COLLECT (787) 751-2265.
Servicio de Teletexto (TTY) para audio-impedidos: 787-282-4267. El seguro de protección de vida, muerte accidental y
desmembramiento, incapacidad o desempleo involuntario es opcional y no es una condición para extenderle el crédito. Este
Acuerdo se interpretará bajo las Leyes del Estado Libre Asociado de Puerto Rico.
NOTIFICACION SOBRE RECLAMACIONES DIRECTAS (RECLAMACIONES DE HISTORIAL DE CRÉDITO): De usted
entender que nosotros hemos sometido información incompleta o incorrecta sobre usted a una Agencia de Crédito escribanos al
PO BOX 9146 Mail code 273, San Juan, PR 00908-0146. Favor incluya información suficiente para identificar la cuenta u otra
relación que está en disputa, incluyendo: su número de cuenta, nombre, dirección, y número de teléfono, si aplica; información
específica y suficiente de lo que está reclamando y una explicación sobre la razón de su reclamación; y toda la documentación
que sustente sus alegaciones o cualquier otra información necesaria requerida por la Institución. Esta documentación puede
incluir: copia de la parte o sección pertinente de su Informe de Crédito que sirve de base a su reclamación y/o que incluye la

información incorrecta; una querella de la Policía de Puerto Rico; la Declaración Jurada sobre hurto de identidad o fraude de ser
esta su reclamación; evidencia de pagos realizados y copia de sus estados de cuenta; entre otros documentos que usted desee
presentar para sustentar su reclamación.

FirstBank Card Services (12/15)

